Highlights
Table of Contents




                    Monitoring
                    Post Office
                    Operational
                    Risk in the
Findings




                    Southern Area
Recommendations




                    Audit Report
                    Report Number
                    DP-AR-14-006

                    September 11, 2014
Appendices




                                         Print
Highlights
Table of Contents




                    Highlights                                Background                                                            What the OIG Found
                                                              The U.S. Postal Service Office of Inspector General (OIG)             The Southern Area is effectively monitoring 12 of the 13 risk
                                                              maintains four risk models containing 41 risk elements related        elements we reviewed. However, we found area and district
                                                              to Post Office™ operations. The OIG uses these risk elements,         managers did not continuously monitor refunds.
                                                              which measure financial, operational, and human resources
Findings




                                                              activity, to evaluate overall risk. The OIG periodically shares the   We found that for calendar years 2011 through 2013, refunds
                                                              evaluations with senior U.S. Postal Service officials.                increased by $3.6 million (from $9.9 million to $13.5 million, or
                                 Personnel were not                                                                                 36.6 percent), while associated revenue increased by about
                                                              We judgmentally selected 11 elements from the risk models that        $7.7 million (from $838.4 million to $846.1 million, or
                            continuously monitoring
                                                              captured the most important aspects of monitoring Post Office         0.9 percent). Area and district personnel were not continuously
                               refunds because they           operations, including refunds, cash balances, grievances, and         monitoring refunds because they are not required to do so
                                                              overtime. Additionally, we selected two important risk elements       under current Postal Service policy and they consider the
                            are not required to do so         related to Post Office Box and caller service management that         financial risk from errors to be low.
Recommendations




                                                              were identified in previous audits as high risk areas. We tested
                                      under current
                                                              these elements as they applied to Southern Area operations for        Without refund monitoring, there is an increased opportunity
                               Postal Service policy.         the period October 1, 2008, through December 31, 2013.                for refund fraud against the Postal Service. Specifically, the
                                                                                                                                    Postal Service issues refunds when labels or meter strips
                                                              Our objective was to determine whether the Southern Area              are damaged or printed in error and voided. Falsifying
                                                              effectively monitors risk related to the 13 selected operational      refunds would provide employees the opportunity to convert
                                                              elements.                                                             Postal Service funds for personal use.
Appendices




                    Monitoring Post Office Operational Risk
                    in the Southern Area
                    Report Number DP-AR-14-006
                                                                                                                                                            Print                                       1
Highlights
Table of Contents




                                                              What the OIG Recommended                                             We determined that for calendar years
                                                              During the audit, the Southern Area Controller established a         2011 through 2013, refunds increased by
                                                              quarterly variance report to identify units with a high percentage
                                                              of refunds to total revenue. As a result of this process, from
                                                                                                                                    $3.6 million (36.6%), while associated
                                                              January through June in calendar years 2013 and 2014,                      revenue increased by about
Findings




                                                              the Southern Area’s refunds decreased by $1.1 million                           $7.7 million (0.9%).
                                                              (from $6.9 million to $5.8 million, or about 15.9 percent).           Roll over the meter strip to see the breakdown
                                                              Therefore, we will not be making a recommendation.
                                                                                                                                            PVI and Post Office Meter Strip
                                                                                                                                            Revenue Breakdown
                                                                                                                                            Calendar Years (CYs) 2011-2013
Recommendations




                                                                                                                                   $850 M

                                                                                                                                   $840 M

                                                                                                                                   $830 M

                                                                                                                                   $820 M
Appendices




                                                                                                                                             $838.4        $830.3      $846.1
                                                                                                                                            Million       Million    Million
                    Monitoring Post Office Operational Risk
                    in the Southern Area
                    Report Number DP-AR-14-006
                                                                                                                                                       Print                         2
Highlights
                    Transmittal Letter


                                                              September 11, 2014
Table of Contents




                                                              MEMORANDUM FOR:	           JO ANN FEINDT
                                                              				                       VICE PRESIDENT, SOUTHERN AREA OPERATIONS

                                                                                              E-Signed by Kimberly Benoit
                                                                                         VERIFY authenticity with eSign Desktop



                                                              				
                                                              FROM: 			 Kimberly F. Benoit
                                                              				      Deputy Assistant Inspector General
                                                              				       for Information Technology and Data Analysis

                                                              SUBJECT: 			               Audit Report – Monitoring Post Office Operational Risk
Findings




                                                              				                       in the Southern Area
                                                              				                       (Report Number DP-AR-14-006)

                                                              This report presents the results of our audit of the U.S. Postal Service’s Monitoring Post
                                                              Office™ Operational Risk in the Southern Area (Project Number 13RG037DP002).

                                                              We appreciate the cooperation and courtesies provided by your staff. If you have any
                                                              questions or need additional information, please contact Kevin H. Ellenberger, director,
Recommendations




                                                              Data Analysis and Performance, or me at 703-248-2100.

                                                              Attachment

                                                              cc:	   Corporate Audit and Response Management
Appendices




                    Monitoring Post Office Operational Risk
                    in the Southern Area
                    Report Number DP-AR-14-006
                                                                                                                                      Print                3
Highlights
                    Table of Contents

                                                              Cover
                                                              Highlights.......................................................................................................1
                                                               Background.................................................................................................1
                                                               What the OIG Found...................................................................................1
Table of Contents




                                                               What the OIG Recommended.....................................................................2
                                                              Transmittal Letter...........................................................................................3
                                                              Findings.........................................................................................................5
                                                               Introduction.................................................................................................5
                                                               Conclusion..................................................................................................6
                                                               Monitoring Postage Validation Imprinter and
                                                               Post Office Meter Strip Refunds.................................................................6
                                                              Recommendations........................................................................................8
                                                               Management’s Comments..........................................................................8
                                                               Evaluation of Management’s Comments....................................................8
Findings




                                                              Appendicies...................................................................................................9
                                                               Appendix A: Additional Information...........................................................10
                                                                 Background ...........................................................................................10
                                                                 Objective, Scope, and Methodology....................................................... 11
                                                                 Prior Audit Coverage..............................................................................12
                                                              Contact Information.....................................................................................14
Recommendations
Appendices




                    Monitoring Post Office Operational Risk
                    in the Southern Area
                    Report Number DP-AR-14-006
                                                                                                                                                     Print                         4
Highlights
                    Findings                                  Introduction
                                                              This report presents the results of our self-initiated audit of the U.S. Postal Service’s monitoring of Post Office™ Operational Risk
                                                              in the Southern Area (Project Number 13RG037DP002). Our objective was to determine whether the Southern Area effectively
                                                              monitored risk related to the 13 selected operational elements.

                                                              The U.S. Postal Service Office of Inspector General (OIG) maintains four risk models containing 41 risk elements related to
                                                              Post Office (PO) operations.1 The OIG uses these risk elements, which measure financial, operational, and human resources
                           We judgmentally selected           activity, to evaluate the U.S. Postal Service’s overall risks. It periodically shares those risk evaluations with senior
Table of Contents




                                                              Postal Service officials.
                                  elements from the
                              risk models to capture          Table 1. PO Operational Risk Elements Reviewed

                                 the most important            Risk Elements
                              aspects of monitoring                1. Postage Validation Imprinter (PVI) and PO Meter Strip Refunds
                                                                   2. Office Cash
                             Post Office operations.
                                                                   3. City Delivery Overtime
                                                                   4. Clerk Overtime
                                                                   5. Carriers Arriving After 5 p.m.
Findings




                                                                   6. Street Efficiency
                                                                   7. Grievances
                                                                   8. Unscheduled Leave
                                                                   9. Wait-Time-in-Line (WTIL)
                                                               10. The Voice of Employee (VOE) Index
                                                               11. Number of Customer Complaints
Recommendations




                                                               12. Inactive Caller Service
                                                               13. Closed PO Boxes
                                                               Source: Risk elements based on OIG analysis of risk models and OIG audit reports.



                                                              We judgmentally selected 11 risk elements from the risk models that capture the most important aspects of monitoring PO
                                                              operations, such as refunds, cash balances, grievances, and overtime. Additionally, we included two important risk elements
                                                              identified in previous audits: PO Boxes and inactive caller service accounts. We tested these elements as they applied to
                                                              Southern Area operations for the period October 1, 2008, through December 31, 2013. See Appendix A for additional information
                                                              about this audit.
Appendices




                                                              1	    The OIG has 17 risk models containing 148 risk elements.
                    Monitoring Post Office Operational Risk
                    in the Southern Area
                    Report Number DP-AR-14-006
                                                                                                                                                          Print                                       5
Highlights                                                    Conclusion
                                                              The Southern Area effectively monitored 12 of the 13 operational risk elements we reviewed. However, we found the area and
                                                              district managers did not continuously monitor PVI and PO meter strip refunds. For calendar years (CYs) 2011 through 2013, PVI
                                                              and PO meter refunds to customers in the Southern Area have increased by about $3.6 million (from $9.9 million to $13.5 million,
                                                              or 36.6 percent), while associated revenue has increased by about $7.7 million (from $838.4 million to $846.1 million, or
                                                              0.9 percent).

                           PVI and Post Office meter          Monitoring Postage Validation Imprinter and Post Office Meter Strip Refunds
Table of Contents




                       strip refunds as a percentage          Managers at the Southern Area office and the four district offices we visited did not continuously monitor PVI and PO meter strip
                                                              refunds effectively. There is adequate information available in the Enterprise Data Warehouse (EDW) for managers to monitor
                       of revenue have increased by           unit-level refunds but they are not required to do so. However, their involvement could reduce the number of refunds and potential
                      36.6 percent (from $9.9 million         for fraud.

                               to $13.5 million) from         PVI and PO meters produce postage labels that show payment of postage and fees. The Postal Service issues refunds when
                                                              labels or meter strips are damaged or when they are printed in error and voided. However, these refunds can also indicate fraud.
                             CYs 2011 through 2013.           For example, a clerk might affix PVI or PO meter strip labels to mail in lieu of stamps and then process a refund to obtain funds.

                                                              Postal Service policy2 states that field unit managers must review supporting documentation for all entries included on daily
                                                              Postal Service Forms 1412, Daily Financial Report, and concur with the overall presentation of the report each day during
Findings




                                                              closeout. This includes reviewing and validating all documentation provided by clerks for PVI or PO meter strip refunds.

                                                              According to the Southern Area accounting manager, PVI and PO meter refunds are the responsibility of managers at the PO
                                                              level and the financial risk from errors is low. In addition, three of the four district finance managers we interviewed said they do
                                                              not monitor PVI and PO meter strip refunds because it is not an area requirement. The fourth district manager said he monitors
                                                              refunds monthly, although refund monitoring is not an area requirement and he considers the financial risk from errors to be low.
                                                              However, PVI and PO meter strip refunds have increased by $3.6 million (or 36.6 percent3) since January 2011 and fraud could be
                                                              a factor. For example, a Postal Service employee in the Great Lakes Area at the Hobart, IN, PO is accused of creating fraudulent
Recommendations




                                                              PVI refunds of more than $13,000 between January and September 2013. The employee allegedly created false PVI labels for
                                                              $25 to $50 and then processed refunds for them and kept the money. Monitoring the refund process would decrease the areas’
                                                              and districts’ vulnerability to fraud.

                                                              We found that Southern Area PVI and PO meter strip refunds as a percentage of revenue have increased by 36.6 percent
                                                              (from $9.9 million to $13.5 million) from CYs 2011 through 2013.4 In CY 2013, Southern Area PVI and PO meter strip revenue
                                                              was about $846.1 million, with about $13.5 million refunded (1.6 percent). In 2011, refunds were 1.18 percent of revenue; in 2012
                                                              refunds were 1.33 percent of revenue; and, finally, in 2013 they increased again to 1.6 percent of revenue. Figures 1 and 2 provide
                                                              details of annual PVI and PO meter strip revenue and refunds between CYs 2011 and 2013 for the Southern Area.
Appendices




                                                              2	   Handbook F-101, Field Accounting Procedures, Section 2-4.1, October 2013.
                                                              3	   Percentage based on unrounded amounts.
                                                              4	   We used calendar years instead of fiscal years because PVI refund data was not available until January 2011.
                    Monitoring Post Office Operational Risk
                    in the Southern Area
                    Report Number DP-AR-14-006
                                                                                                                                                                                  Print            6
Highlights
Table of Contents                                             Figure 1. PVI and PO Meter Strip Revenue Breakdown CYs 2011 Through 2013 (in Millions)




                                                              Source: Postal Service data EDW Accounting Data Mart.



                                                              Figure 2. PVI and PO Meter Strip Refund Breakdown CYs 2011 Through 2013 (in Millions)
Findings
Recommendations




                                                              Source: Postal Service data EDW Accounting Data Mart.



                                                              During the audit, the Southern Area Controller established a quarterly PVI and PO meter strip variance report which is monitored
                                                              by the Southern Area Controller office. This report displays the amount of voided PVI and PO meter strips and identifies units
Appendices




                                                              with a high percentage of refunds to total revenue. The area uses the variance report to determine which POs to review and
                                                              established using a threshold of 1.5 percent of refunds to total revenue. As a result of this process, from January through June
                                                              in CY 2013 and 2014, the Southern Area’s refunds decreased by $1.1 million (from $6.9 million to $5.8 million, or about
                                                              15.9 percent). Therefore, we will not be making a recommendation.

                    Monitoring Post Office Operational Risk
                    in the Southern Area
                    Report Number DP-AR-14-006
                                                                                                                                                       Print                                     7
Highlights
                    Recommendations                           Management’s Comments
                                                              Management reviewed a discussion draft of this report and provided corrective actions implemented since the audit started.
                                                              Management demonstrated that the percent of refunds to associated revenue are now decreasing because of a monitoring
                                                              activity implemented in February 2014.

                                                              Evaluation of Management’s Comments
                         Management corrected the             The OIG considers management’s corrective actions responsive to the issue identified in this report. Therefore, we are issuing
Table of Contents




                                                              this report without a recommendation.
                            issues during our audit,
                           therefore, we are making
                              no recommendations.
Findings
Recommendations
Appendices




                    Monitoring Post Office Operational Risk
                    in the Southern Area
                    Report Number DP-AR-14-006
                                                                                                                                                        Print                                  8
Highlights
                    Appendicies
                                                              Appendix A: Additional Information...........................................................10
                                                               Background ...........................................................................................10
                                                               Objective, Scope, and Methodology....................................................... 11
                          Click on the appendix title          Prior Audit Coverage..............................................................................12
Table of Contents




                           to the right to navigate to
                                the section content.
Findings
Recommendations
Appendices




                    Monitoring Post Office Operational Risk
                    in the Southern Area
                    Report Number DP-AR-14-006
                                                                                                                                                Print                     9
Highlights          Appendix A:                               Background
                    Additional Information                    The OIG has 17 risk models containing 148 risk elements. Of these, four models and 41 risk elements measure PO operations.
                                                              We judgmentally selected 11 risk elements from the risk models that capture the most important aspects of monitoring PO
                                                              operations. Additionally, we included two important risk elements related to PO Box and caller service management identified
                                                              in previous audits as high risk. We tested these elements as they applied to Southern Area operations for the period October 1,
                                                              2008, through December 31, 2013.5 Table 2 defines the 13 risk elements.

                                                              Table 2. Definitions of PO Operational Risk Elements Reviewed
Table of Contents




                                                               Risk Elements                                              Explanation
                                                                                                                          Damaged PVI label errors, voids, or refunds as well as damaged PO postage meter
                                                                   1. PVI and PO Meter Strip Refunds                      strips. This risk element is a component of refunds within the cost and controls model.
                                                                   2. Office Cash                                         Amount of cash units maintain.
                                                                   3. City Delivery Overtime                              The amount of overtime used by city delivery in relation to total city delivery workhours.
                                                                   4. Clerk Overtime                                      The amount of overtime used by clerks in relation to total clerk workhours.
                                                                                                                          Percentage of carriers who return to the station after 5 p.m., determined by the total
                                                                   5. Carriers After 5 p.m.                               number of carriers returning after 5 p.m. divided by the total number of carriers.
                                                                                                                          Percentage shows how efficiently city carriers are delivering the mail. The percentage is
                                                                   6. Street Efficiency                                   cumulative possible deliveries and total number of actual street delivery workhours on city
Findings




                                                                                                                          delivery routes divided by Street Hours.
                                                                                                                          Complaints filed by Postal Service unions on behalf of bargaining employees involving
                                                                   7. Grievances                                          any issue in the collective bargaining agreement, including workplace environment issues.
                                                                   8. Unscheduled Leave                                   Employees with more than 20 unscheduled leave occurrences.
                                                                   9. WTIL                                                Percentage of customers waiting in line over 5 minutes.
                                                                                                                          A data collection instrument used to obtain information from career employees on how
                                                               10. VOE Index
Recommendations




                                                                                                                          they feel about the Postal Service.
                                                               11. Number of Customer Complaints                          Percentage of customer complaints compared to last year.
                                                                                                                          Caller service is a premium service available to those customers (for a fee) who want to
                                                                                                                          pick up their mail at a designated Postal Service unit. Customers obtain this service when
                                                                                                                          they routinely receive more mail than can be delivered to the largest installed PO Box
                                                               12. Inactive Caller Service                                or need to collect mail periodically during the day. This mail is separated for each caller
                                                                                                                          service address the customer pays for. The audit team identified inactive accounts using
                                                                                                                          the Electronic Uncoded Address Resolution Service system, a web-based application
                                                                                                                          that works in conjunction with mail processing equipment.
                                                                                                                          Use of Web Box Activity Tracking System to manage closed PO Boxes to ensure they are
                                                               13. Closed PO Boxes                                        not receiving any more mail.
                                                               Source: Risk element explanations obtained from OIG guidance and models; Inactive Caller Service and Closed PO Box information taken from prior OIG audit reports.
Appendices




                                                              5	   Caller and Reserve Service Operations (Report Number DP-AR-13-001, dated January 3, 2013) and Postal Service Management of Closed Post Office Boxes
                                                                   (Report Number DP-AR-13-007, dated June 18, 2013).
                    Monitoring Post Office Operational Risk
                    in the Southern Area
                    Report Number DP-AR-14-006
                                                                                                                                                                                                Print                               10
Highlights                                                    Objective, Scope, and Methodology
                                                              Our objective was to determine whether the Southern Area effectively monitored risk related to the 13 selected operational
                                                              elements. To accomplish this objective we:

                                                              ■■ Visited and conducted interviews and reviewed information at the Southern Area, the Gulf Atlantic, Houston, Mississippi, and
                                                                 South Florida districts, and 16 judgmental selected POs. Table 3 shows the names of POs we visited.

                                                              ■■ Evaluated whether management in the area, four districts, and 16 POs we visited have sufficient information to effectively
Table of Contents




                                                                 monitor PO operations including grievances, office cash, unscheduled leave, VOE index, WTIL, and customer complaints.

                                                              ■■ Discussed with management in the Southern Area and the four districts we visited why information was not used to monitor PVI
                                                                 refunds, inactive caller service, and closed PO Boxes. We were unable to obtain PVI and meter strip information for refunds
                                                                 issued prior to CY 2011 because they were not accounted for separately prior to CY 2011, but were included with other types
                                                                 of refunds. In December 2010, the Postal Service implemented a new policy to record damaged PVI label errors, voids, or
                                                                 refunds as well as damaged PO meter strips.6

                                                              ■■ Analyzed reports for overtime and city delivery operations used by district management to identify excessive and inconsistent
                                                                 information and interviewed district managers to evaluate their monitoring process.

                                                              ■■ Extracted and analyzed data pertaining to informal grievances.
Findings




                                                              Table 3. POs Visited
                                                               District                   PO                                                    District                  PO
                                                               Gulf Atlantic              Hinesville Main Office                                Mississippi               Clinton MPO
                                                               Gulf Atlantic              Jacksonville Beach Branch                             Mississippi               Jackson LeFleur Station
                                                               Gulf Atlantic              North Jacksonville Station                            Mississippi               Ridgeland MPO
Recommendations




                                                               Gulf Atlantic              South Jacksonville PO                                 Mississippi               Westland PO
                                                               Houston                    Conroe PO                                             South Florida             Dania MPO
                                                               Houston                    Fresno Main Post Office (MPO)                         South Florida             Hallandale MPO
                                                               Houston                    Richmond PO                                           South Florida             Hollywood MPO
                                                               Houston                    University PO                                         South Florida             Gratigny Branch

                                                              Source: POs visited based on OIG analysis.
Appendices




                                                              6	   See Postal Bulletin 22299, Handbook F-101 - Revision: Handling Postage Validation Imprinter Label and PO Postage Meter Voids and Refunds, December 2, 2010.
                    Monitoring Post Office Operational Risk
                    in the Southern Area
                    Report Number DP-AR-14-006
                                                                                                                                                                                Print                                            11
Highlights                                                    We conducted this performance audit from February 2013 through September 2014 in accordance with generally accepted
                                                              government auditing standards and included such tests of internal controls as we considered necessary under the circumstances.
                                                              Those standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
                                                              basis for our finding and conclusion based on our audit objective. We believe that the evidence obtained provides a reasonable
                                                              basis for our finding and conclusion based on our audit objective. We discussed our observations and conclusions with
                                                              management on August 14, 2014, and included their comments where appropriate.

                                                              We did not assess the reliability of any computer-generated data for the purposes of this report.
Table of Contents




                                                              Prior Audit Coverage
                                                                                                                                                                        Monetary Impact
                                                              Report Title                             Report Number                   Final Report Date                  (in millions)
                                                              Grievance Settlements and
                                                                                                        HR-AR-13-008                        9/27/2013                          $3.4
                                                              Payments Follow Up
                                                              Report Results:
                                                              Our report found that management has strengthened internal controls and documentation supporting grievance settlements
                                                              and payments has significantly improved since our prior audit. We reviewed 600 randomly selected grievance case files from
                                                              10 districts and found that 97 (or 16 percent) did not contain one or more of the required documents. Of these, 46 did not have
                                                              specific support for settlements and payments, resulting in about $3.4 million in unsupported questioned costs. Management
                                                              agreed with the recommendation. Management disagreed with the conclusion of a potential $3.4 million in unsupported
Findings




                                                              questioned costs identified in the report, stating that missing settlement documentation in a case file does not necessarily
                                                              correlate with unsupported and questioned costs.
                                                              U.S. Postal Service Data
                                                                                                      DP-AR-13-004(R)                       4/23/2013                          None
                                                              Governance
                                                              Report Results:
                                                              Our report found that the Postal Service could improve management of critical data to assist managers and employees to achieve
                                                              strategic and operational goals. We identified 148 data-related issues in OIG reports issued in FYs 2009 through 2012. Although
Recommendations




                                                              the Postal Service defined a structure for a data governance program in 2003, full roles and responsibilities were not uniformly
                                                              adopted across the enterprise. We identified best practices used by companies with successful data governance programs.
                                                              Management agreed with the finding and, subsequent to their formal response, the recommendation in the report.
                                                              Data Usage in Retail
                                                                                                        DR-AR-13-002                        3/8/2013                           None
                                                              Operations
                                                              Report Results:
                                                              Our report found that retail operations have a substantial amount of information to manage operations, including 11 systems/models,
                                                              250 reports generated from these systems, and hundreds of data elements that reside in these systems. We also found that some
                                                              managers did not know how to use these tools and data to manage operations. Further, 10 prior OIG and Government Accountability
                                                              Office reports describe numerous data usage, availability, and accuracy issues involving retail operations. Management agreed with
                                                              the recommendation.
Appendices




                    Monitoring Post Office Operational Risk
                    in the Southern Area
                    Report Number DP-AR-14-006
                                                                                                                                                         Print                                  12
Highlights
                                                                                                                                                                        Monetary Impact
                                                              Report Title                            Report Number                   Final Report Date                   (in millions)
                                                              Delivery Operations Data
                                                                                                       DR-AR-13-001                       10/11/2012                          None
                                                              Usage
                                                              Report Results:
                                                              Our report found that city delivery operations have a substantial number of systems, reports, and data to manage operations. In
                                                              addition, new supervisors and managers did not always know how to use these tools and data to manage operations. Further,
                                                              our assessment of 32 prior delivery reports showed ongoing issues with data usage, availability, and accuracy. For rural delivery,
Table of Contents




                                                              there is no centralized system containing routes, workhours, and other management information. Management agreed with the
                                                              findings and recommendations and took corrective actions.
                                                              Survey of Postmasters’
                                                              Paperwork and Reporting                  DR-MA-12-001                        5/25/2012                          None
                                                              Requirements
                                                              Report Results:
                                                              Our report found that some postmasters stated they never used certain reports and indicated that headquarters, area, and district
                                                              officials required them to prepare additional reports with information already contained in the daily reports. Excessive reporting
                                                              requirements reduce the time available to manage daily operations, such as time that could be spent interacting with carriers
                                                              and identifying opportunities to improve customer service. Management agreed with the findings and recommendations and took
                                                              corrective actions.
Findings
Recommendations
Appendices




                    Monitoring Post Office Operational Risk
                    in the Southern Area
                    Report Number DP-AR-14-006
                                                                                                                                                        Print                                  13
Highlights
Table of Contents
Findings




                                                                 Contact us via our Hotline and FOIA forms, follow us on social
                                                              networks, or call our Hotline at 1-888-877-7644 to report fraud, waste
                                                                                     or abuse. Stay informed.
Recommendations




                                                                                    1735 North Lynn Street
                                                                                   Arlington, VA 22209-2020
                                                                                         (703) 248-2100
Appendices




                    Monitoring Post Office Operational Risk
                    in the Southern Area
                    Report Number DP-AR-14-006
                                                                                                                                       Print   14
